<html>
<title> - WILDFIRES AND THE CLIMATE CRISIS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]



 
                    WILDFIRES AND THE CLIMATE CRISIS

=======================================================================



                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2007

                               __________

                           Serial No. 110-16




             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
58-243                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     6
    Prepared Statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................    10
Hon. Candice Miller, a Representative in Congress from the State 
  of Michigan, opening statement.................................    10
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    11
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, Prepared statement..........................    12
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, Prepared statement.........................    13

                               Witnesses

First Panel:
Ms. Abigail Kimbell, Chief, U.S. Forest Service..................    15
(Accompanied by Susan Conard, National Program Leader, Fire 
  Ecology Research and Marc Rounsaville, Deputy Director for Fire 
  and Aviation, U.S. Forest Service).............................
    Prepared Statement...........................................    18
    Answers to submitted questions...............................    87
Second Panel:
Dr. Steven Running, Professor of Ecology, University of Montana..    44
    Prepared Statement...........................................    46
Dr. Michael Medler, Associate Professor, Western Washington 
  University, President-Elect, Association for Fire Ecology 
  (Representing Firefighters United for Safety, Ethics, and 
  Ecology).......................................................    57
    Prepared Statement...........................................    60
    Answers to submitted questions...............................    90
Mr. Michael Francis, Director, Forest Programs, Deputy Vice 
  President, The Wilderness Society (Accompanied by Mr. Tom 
  DeLuca, Senior Scientist)......................................    66
    Prepared Statement...........................................    68

                           Submitted Material

Dr. A.L. Westerling article of August 18, 2006, ``Warming and 
  Earlier Spring Increase Western U.S. Forest Wildfire 
  Activity'', submitted by Mr. Inslee............................    38
The San Diego Declaration on Climate Change and Fire Management 
  of November 2006, submitted by Mr. Medler......................    81


                    WILDFIRES AND THE CLIMATE CRISIS

                              ----------                              


                       THURSDAY, NOVEMBER 1, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:06 a.m. in Room 
2172, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Sandlin, Cleaver, Hall, McNerney, Sensenbrenner, Walden, 
Miller, Blackburn.
    Staff present: Ana Unrun-Cohen, Stephanie Herring, Morgan 
Gray and Joel Beauvais.
    The Chairman. Good morning. This hearing is called to 
order. And we thank everyone for their participation. Our 
prayers and support go out to the people of southern California 
who have suffered so much in the recent deadly fires and are 
bracing for more this weekend, according to the latest 
forecasts. Last week's 22 fires displaced a half million people 
and caused at least $1.5 billion in damages. Not since 
Hurricane Katrina slammed the Mississippi and Louisiana coasts 
have so many suffered from extreme weather.
    At least one of the smaller fires appears to have been 
caused by a young boy playing with matches. And California is 
rightly concerned with sorting out what started with arson from 
what started with lightning or power line collapse or other 
common causes of such fires. That is not what this hearing is 
about.
    Global warming does not cause an individual fire or 
hurricane, and global warming is not the cause of the 
California fires. Global warming's contribution to wildfires is 
more subtle and more complex, and scientists and the fire 
fighting community are just beginning to tease out of this 
complex climate record those factors which may be influencing 
these natural disasters in unnatural ways. In fact, the impact 
of global warming on the West is more evident in places other 
than southern California where drought and fire appear to have 
been commonplace in the undisturbed ecosystem.
    There is no doubt that a century of stifling the natural 
fire regime of western forests and the increasing numbers of 
people living in fire-prone areas has made the impact of 
wildfires worse. The questions before us today are, how will 
wildfires change in a warming world? And what can we do to 
reduce their impact? We can learn something about a warmer 
future by looking at the recent past. As temperatures have 
risen in the West, the frequency, intensity and area burned by 
wildfires has increased.
    Recent scientific studies have found that, since 1986, the 
western fire season is 78 days longer. There has been a 
fourfold increase in fires larger than 1,000 acres. There has 
been a sixfold increase in areas and acres burned. And over the 
last century, fire has increased to the point where the 
projections for the next century is that fire will probably 
burn two or three times as much land in the West as it does 
today. Some of the most dramatic increases in fire frequency 
and intensity are occurring in higher elevations where fire 
suppression has not historically been used, underscoring the 
influence of global warming rather than past forest policies on 
wildfires.
    Global warming influences wildfires in a variety of ways, 
through increased drought and reduced rainfall, earlier spring 
snow melt and better breeding conditions for insect 
infestations. These factors combine to create a longer and more 
extreme dry season, resulting in tinder box conditions ripe for 
ignition. It appears that global warming is stacking the 
wildfire deck, making it more likely that when an errant spark 
flies, we will be dealt a losing hand. And losing to mother 
nature can be expensive.
    As we learned in one of our first hearings, damages from 
extreme weather alone have likely cost our Nation $800 billion 
since the 1980s. In addition to property losses, fires 
increasingly eat up the Forest Service budget, as they have to 
spend more and more to fight them. In 2006, it spent a record 
$2.5 billion just for fighting wildfires.
    Data points and dollar signs aren't the only measure of the 
changing nature of fires in the West. The men and women on the 
fire line have experienced the impact of warming temperatures 
firsthand. Tom Boatner, a 30-year fire fighting veteran and 
chief of fire operations for the Federal Government said in a 
recent interview, ``we have had climate change beat us over and 
over the last 10 or 15 years. We know what we are seeing.''
    What can Congress do to help cope with this increasing 
threat? Policies that improve forest management on the edge of 
communities and help make these communities more resilient are 
crucial but not comprehensive. We will ultimately reach the 
limit of our adaptive capacity, which is why we must act now to 
begin to address the underlying disease of global warming, not 
just the symptoms.
    Congress has the opportunity to send an energy bill to the 
President that could by 2030 reduce U.S. global warming 
pollution by up to 40 percent of what we must do to save the 
planet. This will lay the foundation for achieving more 
significant cuts through a subsequent cap, auction and trade 
bill. We have already set in motion changes to our western 
forests. Now we must adopt smart policies that will help avoid 
the unmanageable and manage the unavoidable impacts of global 
warming. And now I would like to turn to recognize the ranking 
member of the Select Committee on Global Warming, the gentleman 
from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]
    [GRAPHIC] [TIFF OMITTED] 58243A.001
    
    [GRAPHIC] [TIFF OMITTED] 58243A.002
    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. Like 
all natural disasters, the recent wildfires in southern 
California have taken an enormous toll on lives and property 
damage. With 7 dead, 2,000 homes destroyed, 640,000 people 
displaced and possibly up to $2 billion in damages, wildfires 
have again shown that they are a deadly threat to people living 
in the arid West, just as hurricanes have proven to be a deadly 
and destructive threat to people living on the Atlantic and 
gulf coasts.
    Death and destruction aren't the only things that wildfires 
and hurricanes share in common. They are now both used as 
poster children for global warming. I am glad the Chairman has 
said that global warming didn't cause the wildfires, unlike the 
comments made by the Senate Majority Leader over in the other 
body a couple of weeks ago. While both of these severe weather 
events are common and occur naturally, global warming alarmists 
are using these natural disasters to promote regulations that 
will have little or no effect on the forces of nature.
    In regards to global warming, there are many similarities 
between hurricanes and wildfires. In both cases, they are 
complicated natural events, influenced by a variety of factors. 
And yes, in both cases, warmer temperatures can create 
conditions that would amplify the effects of these disasters. 
But just like hurricanes, there is no concrete scientific link 
between the southern California wildfires and global warming. 
And even if there were, Members of Congress would be fooling 
themselves to think that by passing a bill to supposedly do 
something about global warming, they would have any measurable 
impact on the ground in southern California.
    What would have a measurable impact in California and in 
other parts of the country are smart forestry practices. 
Liberal environmentalists have long fought to prevent 
management of our forestry, which exacerbates many problems 
that make forest fires worse. By allowing forests to go 
unmanaged, it allows for grasses, underbrush, dead trees and 
other growth to serve as kindling for these fires.
    As the wildfires were raging last week, the Los Angeles 
Times reported that forest thinning helped the resort town of 
Lake Arrowhead to avoid the worst of the damage. The Times 
described the area as, quote, an island in a sea of 
destruction, unquote. By creating what are known as fuel 
breaks, residents of Lake Arrowhead were able to see firsthand 
the effect of forest thinning as they watched billowing fires 
stop nearly dead in their tracks. Forest thinning produces a 
tangible measurable environmental benefit. I wouldn't support 
any global warming legislation that doesn't result in 
measurable environmental damages.
    There is another similarity between hurricanes and 
wildfires that Dr. Steven Running points out in his testimony 
today. Just like the hurricanes, the damage suffered by 
wildfires is often the result of where you live. Live by the 
ocean, and the chances of your house getting knocked down by a 
hurricane are much greater than those more inland. The same is 
true of those who build in the wild land urban interface where 
the dangers of wildfires are greatest.
    As the fires raged, the Los Angeles Times also posed the 
question of whether global warming was part of the problem. The 
answer appears to be a qualified, no. Quoting the Journal of 
Science, the Times reported that, unlike the rest of the West, 
there has been no increase in the wildfire frequency in 
southern California. Pointing out the potential problems of 
global warming is easy. What would also be easy is preparing 
for natural disasters through adaptive management techniques, 
like forest thinning and fuel breaks for wild land fires. The 
hard part is finding ways to promote the development of energy 
sources that don't emit CO<INF>2</INF> and other greenhouse 
gases. If we can do this, we would truly be doing something 
about global warming. I thank the Chair and yield back the 
balance of my time.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you very much, Mr. Chairman.
    I agree with my distinguished friend from Wisconsin about 
the concerns of development. In fact, I talked about that to 
one of the L.A. Times reporters. We kind of joked, I have this 
conversation with him about every year when these fires break 
out, and we don't do anything about the problem with that 
interface. In fact, we have so created a problem that it is 
hard to characterize these as natural disasters because we make 
them more likely. We make them worse, and we allow more and 
more and more people to be in the flame zone.
    Global warming puts this in perspective where we are not 
going to be able to ignore it any longer. And any amount of 
intelligent forestry is not going to save us if we continue to 
have more development. Two-thirds of the new buildings in 
southern California over the past decade were on lands 
susceptible to wildfires. If last week's fires had burned in 
the same location in 1980, there would have been 61,000 homes. 
By 2000, that number had risen to 106,000, and by this year, it 
was 125,000. Now we have got to get our heads around the fact 
that we are having a situation that we are making worse; it is 
compounded by global warming.
    And the Federal Government is actually producing 
malpractice. We are lavishing money on fighting fires. We are 
not spending money on disaster protection to make them less 
likely. We save $4 for each $1 we put in prevention. And we 
keep putting people back in harm's way. We subsidize 
development. We don't have reasonable regulation, and then we 
bemoan the fact that we have these wildfires, and we call them 
natural disasters. I think that is abuse of the term. It is not 
fair to nature. I look forward to hearing from our witnesses 
today to sort of deal with the big picture. Because if we 
continue to have more and more people located in the flame 
zone, the fastest growing States are areas that are subjected 
to persistent drought, subjected to wildfire, and of course, we 
are going to have the floods. When the rain finally does come 
in southern California, then we are going to be paying a lot of 
money to help people with mudslides and calling it an act of 
nature.
    I really appreciate this hearing. I hope we can continue to 
look at this through the prism of global warming because I 
think it is going to up the ante, and maybe finally Congress 
will stop practicing malpractice when it deals with these 
disasters.
    [The prepared statement of Mr. Blumenauer follows:] 
    [GRAPHIC] [TIFF OMITTED] 58243A.003
    
    [GRAPHIC] [TIFF OMITTED] 58243A.004
    
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    I appreciated your comments in the opening statement, vis-
a-vis the problems we have in our national forests, and some of 
us have actually been trying to working to change those 
policies, and I look forward to working with you in those 
endeavors. I frankly think the passage of the Healthy Forest 
Restoration Act, which I know not everyone on this committee 
supported, provided for the wildfire community planning process 
to allow the communities to come together and deal with the 
wild land urban interface, and it has been quite successful 
where it has been implemented in communities across America and 
has really resulted in fuel reductions and better planning 
processes, and that is what is needed. But the bigger problem 
really rests on the state of America's national forests. Teddy 
Roosevelt would be rolling over in his grave right now if he 
could see what has happened to his great forest reserves, which 
he called for active management upon.
    Right now, the 192 million acres in the national forest 
system, 52 million acres are at risk to catastrophic wildfire. 
Wildfire like this depicted behind me is the Egley fire, burned 
this summer out in central Oregon; 140,000 acres burned. This 
did not come about because of homes there. This came about 
because of a lightning strike, and it burned over a prior burn; 
140,000 acres were consumed. These children standing here are 
the future. Caleb Presley 10; Ashley Presley, 6. They are the 
grandkids of the Harney County Judge Steve Grasty. This is the 
future forests that we are giving them because of inaction, 
because of failed practices in the past, because of litigation, 
because we lock it up, leave it, and let it burn, and do 
nothing about it.
    Now some of us on this committee, my colleague Ms. Herseth 
and I worked together on the Forest Emergency Recovery and 
Research Act, which passed overwhelmingly in the House, the 
bipartisan bill to go in after these fires, remove the dead 
burned trees where it makes sense environmentally and where we 
can still get value out of the timber. Because we are going to 
use wood in America, we ought to use the burned dead wood, not 
import illegally harvested wood from across the globe, which is 
what we are doing today in America. We are using that wood, 
harvested illegally in furniture we buy back here.
    So changes have to occur if we are going to deal with 
carbon emissions, if we are going to make our forests 
healthier, if we are going to keep up with the increasing 
temperatures that are occurring. And the Forest Service tells 
us that is what is happening. Then forests in the West--
especially the eastern side, my district certainly has got to 
be managed better if we are going to keep pace and have the 
appropriate fire regimes. And at some point, I will get into 
the IPCC language because I think it makes the case as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman's time has expired.
    The Chair recognizes the gentlelady from South Dakota, Ms. 
Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman. I will forgo 
an opening statement to add additional time to my questioning. 
Thank you.
    The Chairman. The Chair recognizes the gentleman from New 
York State, Mr. Hall, for an opening statement.
    Mr. Hall. Thank you, Mr. Chairman.
    I also will save my time for questions.
    The Chairman. The gentleman's time is reserved.
    The Chair recognizes the gentlelady from California, Ms. 
Solis.
    Ms. Solis. Thank you, Mr. Chairman.
    I am pleased that you are having this hearing today because 
I also represent California, southern California. And I am very 
pleased that we did not suffer this time around the enormous 
fires that surrounded Los Angeles County. Yesterday we heard 
from some folks that came by to talk to our California 
Delegation about how we could better manage this particular 
rising crisis that continues to plague areas like southern 
California. And one that I would be interested in hearing from 
our witnesses is, what we need to do to help provide more 
assistance to our State forest, you know, wild service; what 
plan, management that we need, the tools that we need. I 
understand that the Bush Administration has cut back by 18 
percent on funding for the management plans that our States 
should have in place. So I am very concerned. I want to hear 
about that. I am very interested also in how we can help 
distressed communities, low-income communities so that they 
have fully implemented evacuation plans and that they, too, 
understand the importance of security and understand that they 
are also a part of the solution and would like to hear more 
about that.
    I have had the privilege of being on C-SPAN just a couple 
minutes ago. And many people do not understand what is 
happening to our climate change that is occurring and the 
impacts. And I understand that some people will say, there is 
no correlation between the fires and global warming. But we do 
see in southern California and other arid areas in the 
southwest where we have experienced drought-like conditions for 
the past 7 and 6 years. And we continue to not focus on that 
and do preparation for these disastrous fires. So I think that 
it is a combination of different things, both planning the 
forests, better resources and better management at the local 
level and coordination with the State and Federal level and, of 
course, the funding to implement that I think are very 
important. That is all I want to say, and I look forward to 
hearing from the witnesses. Thank you.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentlelady from Michigan, Mrs. 
Miller.
    Mrs. Miller. Thank you, Mr. Chairman. And I certainly want 
to thank you for holding this hearing today. Certainly what has 
happened in southern California is of utmost interest certainly 
to our entire nation, to the entire world quite frankly. And if 
it is not inappropriate, I might just take 1 minute to formally 
put myself on the record to ask you to consider a hearing for a 
different topic at another time, and that is regarding the 
Great Lakes. We have historic low lake levels. I will just take 
one quick minute. Unbelievably low lake levels that is 
happening in the Great Lakes, which is one-fifth, 20 percent, 
of the fresh water supply of the entire planet, much of it can 
be attributable I think to climate change, changing weather 
patterns. Some of it is man-made but it is having an 
unbelievable negative impact on many segments of society. And I 
know we are going to talk about wildfires today. But I would 
like to be on record asking you to consider such a hearing in 
the future. Thank you.
    The Chairman. Absolutely we will. In part I am responding 
in this hearing to the request from Mr. Walden and Mr. 
Blumenauer that we spend more time on the forestry related 
issues, and I will try my best to accommodate that request as 
well. Let me now turn and recognize the gentleman from 
California, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    My heart certainly goes out to the families who lost their 
homes in last week's fire. Whether it is fires, hurricanes, 
earthquakes, any of these human tragedies are something that we 
feel deeply about and that we want to try to avoid as much as 
possible. Are these large fires the result of global warming? 
Well, we can't really answer that definitively; can we? 
Certainly the fires, the droughts, the large frequent storms 
are consistent with the theory of global warming. We will 
indeed see more of these large fires. We will see more 
hurricanes. We will see droughts. And it is incumbent upon us 
to understand what is going on here, to adapt and to mitigate, 
and I think that this hearing is a good step in that direction. 
I thank the panelists for coming today, and I look forward to 
your testimony. Thank you. I reserve the balance of my time.
    The Chairman. The gentleman's time has expired.
    And I don't see any other members seeking recognition.
    [The prepared statements of Mr. Cleaver and Ms. Blackburn 
follow:]
[GRAPHIC] [TIFF OMITTED] 58243A.005

[GRAPHIC] [TIFF OMITTED] 58243A.006

[GRAPHIC] [TIFF OMITTED] 58243A.007

    The Chairman. And I will then turn as a result to our first 
witness, and that witness is Gail Kimbell.
    She is Chief Gail Kimbell. She is the 16th chief and the 
first female chief of the U.S. Forest Service. Her long and 
distinguished career working in Federal forestry began in 1974. 
She has extensive experience working in our Nation's forests 
throughout the West, including Alaska, Oregon, Colorado and 
Washington. She assumed her current position as Chief of the 
U.S. Forest Service on February 5, 2007.
    We welcome you, Chief. Whenever you are ready, please 
begin.

   STATEMENT OF ABIGAIL KIMBELL, CHIEF, U.S. FOREST SERVICE; 
 ACCOMPANIED BY SUSAN CONARD, NATIONAL PROGRAM LEADER FOR FIRE 
  ECOLOGY RESEARCH, AND MARC ROUNSAVILLE, DEPUTY DIRECTOR FOR 
            FIRE AND AVIATION, U.S. FOREST SERVICE.

    Ms. Kimbell. Thank you, Chairman.
    Mr. Chairman and members of the Select Committee, thank you 
for inviting me today. I will focus my oral remarks on what the 
Forest Service is doing to address interactions between 
wildfire and climate change.
    First, I would like to note that I am accompanied by Dr. 
Susan Conard. Susan is the National Program Leader for Fire 
Ecology Research, right behind me. And I am also accompanied by 
Marc Rounsaville, who is my Deputy Director for Fire and 
Aviation for the agency. And I also must disclose, because I 
understand there are some baseball fans, that everything I know 
about baseball, I learned in Fenway Park.
    Mr. Blumenauer. Cheap shot.
    The Chairman. No. But everything she learned about ecology, 
she learned in Yellowstone Park; okay? So we will just give 
deference to which park teaches which subject.
    Mr. Blumenauer. Cheap shot. Cheap shot.
    Ms. Kimbell. Scientists tell us climate change may increase 
the incidence and severity of wildfire in some parts of the 
United States. Decisions made today by resource managers and 
policymakers will have implications throughout the next 
century. I am a forester with over 33 years of experience, but 
I am not a scientist.
    Still, the Forest Service has some of the best scientists 
and research available on forests and climate change. For 
example, Forest Service scientists participated in the 
Intergovernmental Panel on Climate Change, the IPCC. They were 
recently awarded a Nobel Peace Prize, and they concluded that 
disturbances from pests, diseases and fire are projected to 
have increasing impacts on forests with longer fire seasons and 
large increases in areas burned. While we have much to learn 
about the interactions between climate change and wildfire, we 
are taking science-based adaptive management approaches today 
to reduce the impact of wildfires to mitigate the impacts of 
climate change on our Nation's forests and grasslands and to 
improve the forest potential for mitigating the effects of 
climate change.
    I was in southern California last week, observing what is 
being done to suppress those fires and talking with fire crews 
and fire managers about their efforts. Along with the 
California Department of Forestry and Fire Protection and other 
agency partners, the fire fighters are doing everything within 
their power and qualifications to contain those fires. Without 
question, we are seeing more wildfires covering more acres in 
recent years, a result of extended drought and the accumulation 
of fuels. Climate change is certainly a contributor to the 
factors affecting the current fire situation, but more needs to 
be known about the details. We need more information before we 
can conclusively answer the question of the relationship 
between wildfire and climate change.
    A recent study by the department's Office of Inspector 
General found that the majority of the Forest Service's fire 
suppression costs were related to fighting fire in the wild 
land urban interface. According to our recently published, 
``National Forests on the Edge,'' just published last week, 
almost 22 million acres of rural private lands, about 8 percent 
of all private lands located within 10 miles of the national 
forest boundaries are projected to undergo increases in housing 
densities by 2030. This coupled with climate change factors of 
drought and warmer temperatures will increase the complexity 
and the costs of fire fighting. The Forest Service has 
conducted over two decades of focused climate research, three 
decades of air pollution research, and has long experience in 
scientific assessments that provide a firm scientific 
foundation for addressing the challenge of forest and rangeland 
management relative to climate change. Forest Service research 
and development continues to study the interactions between 
factors affecting fire behavior and the potential effects of 
changing climate on fire patterns and vegetation. There are 
important knowledge gaps we must address, such as wide 
variability and the estimates of fire emissions.
    While we have information for a few systems, we do not have 
good information on all systems of how burn severity affects 
emissions or vegetation recovery. Current models of smoke 
dispersion need to be improved to more accurately predict the 
potential effects on human health. We are developing improved 
projections of the impacts of changing precipitation patterns 
on forest ecosystems to help us adapt to and mitigate those 
changes. In partnership with other land managers, we are 
working to identify the landscape level forest conditions most 
likely to sustain forest ecosystems in a changing climate.
    The IPCC in its fourth assessment report states, in the 
long term, a sustainable forest management strategy aimed at 
maintaining or increasing forest carbon stocks while producing 
an annual sustained yield of timber, fiber or energy from the 
forest will generate the largest sustained mitigation benefit. 
Forestry can make a very significant contribution to a low-cost 
global mitigation portfolio.
    It is important to note that not only can forests store 
carbon and help mitigate greenhouse gas emissions, they can 
also provide clean water, wildlife habitat and recreational 
opportunities among other significant environmental and 
economic amenities.
    Other elements of a broad strategy include treating fuels 
to reduce the threat of wildfire to community and to other 
forest values, keeping forests in forest, keeping forests 
healthy and reforesting degraded lands. While recent wildfire 
activity reflects some of what we have experienced with climate 
change, management of fire and vegetation and thoughtful 
restoration, including that of burned areas, can and should be 
part of the solution. Communities of vastly different interests 
across the country are witnessing changes in the forests they 
care about, and they are coming together to develop guidelines 
to support forest restoration.
    The Forest Service has focused resources on improving 
forest health and the resilience of ecosystems to climate 
change. Many of the approaches we use to reduce fire risk and 
restore fire-affected systems also improve forest health and 
productivity and increase the resilience of America's forests 
to changing climate. Although forests are not the solution to 
controlling greenhouse gases, forests and sustainable forest 
management must be part of a broad set of strategies that 
contribute to the solution. Thank you for the opportunity to 
discuss these issues with the committee. And I would be happy 
to answer any questions you might have.
    [The statement of Ms. Kimbell follows:]
    [GRAPHIC] [TIFF OMITTED] 58243A.008
    
    [GRAPHIC] [TIFF OMITTED] 58243A.009
    
    [GRAPHIC] [TIFF OMITTED] 58243A.010
    
    [GRAPHIC] [TIFF OMITTED] 58243A.011
    
    [GRAPHIC] [TIFF OMITTED] 58243A.012
    
    The Chairman. Thank you so much, Chief, for being here at 
this time. Let me turn first and recognize myself and ask you, 
do you consider wildfire a threat to public welfare?
    Ms. Kimbell. Wildfire, you know, certainly in the last 
several years, we have seen an increase in the size of 
wildfires and the number of large wildfires. We have seen the 
number of fires over 100,000 acres increase pretty dramatically 
since 1990. You can see in this graph here the increase since 
1990. The blue diamonds indicate the number of fires over 
100,000 acres. Those are the very expensive fires. Those are 
the very troubling fires, and many of those fires are the ones 
we are talking about, like in southern California, with the 
nearly 2,000 homes burned just in the last week and a half.
    The Chairman. May I ask, do you think that CO<INF>2</INF> 
emissions are without question contributing to global warming?
    Ms. Kimbell. I am not a scientist. But I can say that we 
have measured certainly CO<INF>2</INF> emissions from fire. We 
have measured carbon monoxide and methane along with other 
volatile gases. And they should be of a concern to all of us.
    The Chairman. Well, it is 6 months since the Supreme Court 
rendered its decision in Massachusetts v. EPA, asking the EPA 
to make a ruling on whether or not CO<INF>2</INF> is a danger. 
And it has yet to do so and, as a result, has yet to have to 
then make decisions as to what it is going to do about it. So 
that really does create some problems for us.
    I solicited some questions online yesterday, and I wanted 
to share one with you from someone who lives in Missouri. He 
was concerned that as global warming widens the area subject to 
wildfire conditions, it could reach into areas of his State and 
other States that are not used to having wildfires and are ill-
prepared to fight them. If climate change expands the number of 
areas at risk of wildfires, it could take many communities by 
surprise. What areas of the country should begin to contemplate 
wildfires for the first time? And what can be done to educate 
other communities unaccustomed to wildfires?
    Ms. Kimbell. Well, the Congresswoman from Michigan 
mentioned the Lake States, and certainly, we had some pretty 
active fire in northern Minnesota this summer. The northern 
latitudes in the more real forests are experiencing some of the 
greatest change with climate change, and certainly, we need to 
be paying attention and focus there. The drought across the 
southeast United States right now in Georgia, Tennessee, 
Kentucky, South Carolina, we are experiencing drought and fire 
danger in a way that those communities are not accustomed to in 
October of a year. The fire that burned out of the Okefenokee 
Swamp this spring and burned so many acres in Florida, creating 
not only a huge health risk but certainly destroying a lot of 
people's livelihoods, burned a lot of private timber. And 
fortunately when it hit some treated lands, some areas where 
the hazardous fuels had been reduced, we were able to suppress 
that fire.
    But there are communities not only in the northern 
latitudes and in the more real forests where climate change is 
the most pronounced or we expect the effects to be most 
pronounced, but certainly there are communities experiencing 
prolonged fire seasons that may have been prepared for a 2- or 
3-month fire season and are now looking at having to prepare 
for a much longer fire season.
    The Chairman. And one final question.
    Recently Centers for Disease Control Director Julie 
Gerberding testified before the Senate on the impacts of 
climate change on global public health. In her draft testimony, 
she stated that, because of climate change, quote, forest fires 
are expected to increase in frequency, severity, distribution 
and duration. The Bush Administration removed that statement 
from her final testimony. Do you agree with that statement?
    Ms. Kimbell. I think we can demonstrate higher severity, 
larger fires and certainly over the last 7, 8 years, more 
frequent fires and a longer fire season.
    The Chairman. Well, I thank you for that testimony.
    I now turn to recognize the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    Mr. Sensenbrenner. Mr. Chairman, I ask unanimous consent 
that my time be given to the gentleman from Oregon, Mr. Walden.
    The Chairman. Without objection, it will be so ordered. And 
Mr. Walden is recognized for that purpose.
    Mr. Walden. Thank you, Mr. Chairman.
    And thank you, Mr. Sensenbrenner.
    Chief, I welcome your testimony today. I thought it was 
excellent, and I also appreciate the service you give to the 
Forest Service and many States, especially my home State of 
Oregon, and your days as ranger up in Le Grande. We appreciate 
your leadership there. I would like to follow up on several 
points. There is an Associated Press story out today that says 
that southern California wildfires emitted the same amount of 
carbon dioxide in the atmosphere as that State's power plants 
and vehicles do for a year, some 8.7 million tons, which is 
more than the entire power emissions from the State of 
Washington, 6.5 million tons.
    Clearly these wildfires do emit pollutants into the 
atmosphere. And it seems to me that your agency needs 
additional resources and help to deal with mitigating these 
levels of fires we are seeing in recent years.
    Now can you speak to the difference, for example, in a 
State like mine or a region like mine in sort of the arid 
eastern sides of the States of Washington and Oregon and the 
forest regimes there versus the western side where we don't 
necessarily see the same types of fire, and the importance of 
changing the structure of those forests to make them more 
compatible with their natural environment, that hasn't existed 
for 100 years since we started suppressing fire. What do you 
need? What tools do you need? Does HFRA work? Are you using it? 
Healthy Forest Restoration Act. And is that adequate?
    Ms. Kimbell. Tools. We are absolutely using the Healthy 
Forest Restoration Act. Since the inception of the National 
Fire Plan, all the Federal agencies together have treated 25 
million acres of hazardous fuels. That is in the original 
reports that set up the National Fire Plan. There was an 
estimated 190 million acres that had excessive fuels. And to 
date, we have been able to treat 25 million acres, working with 
community and community wildfire protection plans.
    Mr. Walden. Now we have seen fires, like the fires in 
Tahoe, where your agency had wanted to go in and do treatment 
to remove hazardous fuels from wild land urban interface. What 
precluded that treatment from occurring?
    Ms. Kimbell. Well, in fact, I was able to visit the Angora 
fire this summer there at South Lake Tahoe and able to visit 
with forest staff, able to visit with community members who had 
been so involved. I was able to visit with the chairman of the 
Tahoe Regional Planning Authority. I also asked our scientists 
to put together an assessment of fuel treatments in the South 
Lake Tahoe area. We actually conducted transects through the 
burned area, the areas that had been treated prior to the fire.
    Mr. Walden. I am going to have to move you along a little 
quicker. I am going to run out of time here. What delayed the 
treatment?
    Ms. Kimbell. There is a lot of very complex agreements in 
the Lake Tahoe area. There are a lot of complex agreements all 
over. It is not just Lake Tahoe, but certainly there is a 
certain amount of social license that will allow a lot of 
different activity to take place in a forest, and sometimes 
there are things in the process that can really hold up, 
prevent, delay treatment of hazardous fuels. And I think we 
have examples of that certainly all over the West.
    Mr. Walden. All right. Okay. Let me give you an example in 
my district. A fire that burned this summer outside of Sisters, 
Oregon, came roaring over both private land and Federal, 
started by lightning, came down into an area that they had been 
trying to thin since I think 2000 or 2001. And that thinning 
project had been under appeal by different groups or a group. 
Finally, they had gotten through the court system, and the 
Forest Service prevailed, and the thinning had occurred. When 
the fire hit that area that had been thinned, it went to the 
ground. They were able to put it out.
    Ms. Kimbell. Absolutely.
    Mr. Walden. But it took them years and years and years to 
fight through to be able to get that thinning done.
    And it strikes me that much of your agency's time is still 
spent in litigation and fighting appeals and in the courtrooms 
rather than on the ground doing the treatment that your 
foresters are educated to provide. And we are never going to 
get ahead of this 190 million acres of area that needs some 
work if you are always backlogged. And that same forest 
actually has HFRA-approved projects out 5 years and yet lacks 
the funding to go implement some of those. So it is a funding 
issue, and part of that gets back to how much are you spending 
this year fighting fire, $1.2, $1.4 billion?
    Ms. Kimbell. $1.34.
    Mr. Walden. And how much now have you had to dip into these 
other accounts on an emergency basis to pay for fire fighting?
    Ms. Kimbell. We had to dip into other accounts, $100 
million.
    Mr. Walden. And would any of those accounts effect work out 
on the ground this season?
    Ms. Kimbell. Not those accounts specifically but the 
continuing effect when you work those numbers into a 10-year 
average, and then you look at your out year budget. In 
preparing the fiscal year 2009 budget, I had to find $300 
million to move out of other projects to move into fire 
suppression to meet that 10-year average. That $300 million 
comes from everywhere.
    Mr. Walden. And does that include coming from how we 
maintain campgrounds and parks and other recreational 
activities out on the Federal land that now we are having to 
scramble or you are closing because you don't have those 
resources?
    Ms. Kimbell. And in fact, it also comes from vegetation 
treatment.
    Mr. Walden. All right. Then some vegetation treatment 
funding remains an issue that we need to deal with. Post-fire 
recovery, I think Congresswoman Herseth Sandlin and I authored 
the Forest Emergency Recovery Research Act. It was probably 
among other things providing the biggest funding source to 
enhance the science of post-fire post-disaster recovery. It 
passed the House, went up where all good bills go to die in the 
Senate. I believe we need more research to be done so we get it 
right and we don't make mistakes.
    But, in the meantime, you have a lot of long-term 
management practices that you all know what works and what 
doesn't work. And am I correct that you still have more than a 
million acres of Federal forest land post-fire that have not 
been replanted?
    Ms. Kimbell. That is correct.
    Mr. Walden. This isn't post-timber harvest share commercial 
sale program because that is required to be replanted in--as I 
recall from the GAO report a year ago, is replanted. So we are 
just talking post-fire. It is lands like this that go 
untreated. Now my understanding on this Egley fire is that 
there are those in the environmental community who are telling 
the Forest Service, they won't appeal if you don't harvest more 
than 19 trees on 140,000 acres. Now we are still running that 
out. But that is what I have been told, 19; 140,000 acres. We 
have had half a million acres in my State burn this year. This 
is getting out of control. We have to change Federal policy. Or 
this place isn't going to get replanted. ``That will come back 
naturally.'' You will hear that. ``Oh, yeah, don't do anything. 
You are better not to disturb this; just leave it the way it 
is.''
    I will tell my colleagues, nobody else leaves it the way it 
is; not private forest managers, not county forest managers, 
not State forest managers, not tribal forest managers. Only we 
do this in a tribute to burned and destroyed watersheds and 
habitat. And I just get sick of it because nobody else does 
this. I held hearings when I chaired the Forestry Subcommittee. 
Tribal nations are in--even in my State--hauling out burned 
dead trees while they were smoldering. Not the best 
transportation practice, but they admitted to it. The State of 
Oregon under--one of the most aggressive forest management 
practice laws in the country, if not one of the first, one of 
the most aggressive, goes in immediately after fires on their 
lands and does the rehab work.
    And how long does it take you to come up with a plan to 
come in after a fire?
    Ms. Kimbell. Well if it is not done within the first 3 
years, then the value is such that----
    Mr. Walden. But it takes you a year to come through the 
planning process; correct?
    Ms. Kimbell. At least.
    Mr. Walden. And then you have the appeals process and that 
can take a year; correct?
    Ms. Kimbell. The appeals process should only be 90 to 120 
days.
    Mr. Walden. But with the seasons for harvest and activity 
in the forest, it can delay you into the next year; correct? 
You can't work in the winter in some areas.
    Ms. Kimbell. Yes. That is correct. And then, too, if 
something is litigated, and it goes to court, then it can be 5, 
6, 7 years.
    Mr. Walden. Right. So you lose the value so you don't get 
the funding into your agency to do the restoration work. And if 
you replant sooner, you are going to produce a forest sooner, 
and you are going to sequester carbon sooner. Doesn't your 
science show that as well?
    Ms. Kimbell. The science absolutely shows that, that 
healthy vigorous growing trees sequester carbon. Those don't.
    Mr. Walden. Exactly. And so, Mr. Chairman, I hope we can 
find some common ground here to become better managers and give 
the Forest Service better tools to make the right decision not 
to wipe out every--I have never supported that. You don't go 
ahead and clear cut all this stuff. But there are areas where 
you can recover. There are areas where you drop them to stop 
the erosion. They do a really good job with their bear teams 
coming in after a fire; they will drop some of these trees 
horizontally to the hillside so that it will stop the erosion 
because otherwise this all runs into the watershed. I know I 
have used up my time. But I appreciate your testimony and the 
work you are doing. And we will continue to do our part here.
    Ms. Kimbell. Thank you, Mr. Walden.
    May I add one thing? I did mention social license. And I 
think the work that is going on in so many communities is very 
encouraging to me where many diverse interests are coming 
together and talking about what needs to happen, what do they 
want to have happen in the forests that means so much to them? 
We have got some great examples of that around the country. But 
maybe since hurricanes were mentioned this morning, the work 
that happened in Mississippi following Katrina, working with 
wild law, working around a common vision of what long leaf pine 
restoration should look like, we were able to accomplish just a 
huge amount of restoration work using salvage logging and other 
methods. But restoration work in those long leaf pine 
ecosystems in Mississippi took a lot of work on the part of a 
lot of people but had very positive results.
    Mr. Walden. And you were able to use the Healthy Forest 
Restoration Act; weren't you?
    Ms. Kimbell. Yes, we absolutely were.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from Oregon, Mr. Blumenauer.
    Mr. Blumenauer. Thank you. And I deeply appreciate, Chief, 
your looking at the big picture because people are focused on 
southern California. But it is up in the Great Lakes region. 
Well, there are certain irony because the Governor of Georgia 
is now trying to short cheat Alabama and Florida by keeping 
their--what they think is their water and threatening not just 
endangered species but coal communities and the fishing 
industry because they haven't got their act together. And with 
the climate change, with development in the flame zone, we are 
going to see this all across the country.
    And I do appreciate the comments from my friend and 
colleague from Oregon because there are lots of things that 
communities can come together on and deal with some absolutely 
noncontroversial treatment on the urban fringe. And we might 
actually be able to extract some wooden biomass that will help 
with some of our other fuel issues.
    But I guess we can't do this if you are going to be 
spending more and more and more of your money that you are 
charged with managing on a problem that is getting ever larger. 
Because it is not just smart forest practices that impact 
fighting fires. The figures I have given, for example, you had 
a 600-acre fire in the Jebediah Smith wilderness that costs 
maybe $20,000 to fight when you are dealing with 600 acres. In 
contrast, there was a 250 acre fire near the town of Wilson, 
Wyoming, that cost more than 10 times as much because of the 
proximity. And there are orders of magnitude--I mean, I am 
assuming that we can be looking at orders of magnitude that are 
100 or 1,000 times greater because of the infrastructure and 
the people involved. Is that correct? Do I have that right?
    Ms. Kimbell. Certainly, it is much more expensive where you 
are up against community development, yes.
    Mr. Blumenauer. And you are already cannibalizing the 
budget to deal--you are making difficult priority decisions.
    Ms. Kimbell. We are making very difficult priority 
decisions in order to be able to have funds to be able to 
suppress fires when they are up against those communities.
    Mr. Blumenauer. But they are undercutting the long-term 
issues of health and recreation, research. I mean, you are 
having to thin all of your activities with this exploding 
problem.
    Ms. Kimbell. We have made some very difficult adjustments, 
yes.
    Mr. Blumenauer. I was struck in your testimony where you 
talked about the 22 million acres of rural private land within 
10 miles of the core national forests that are projected to 
undergo very significant increases in housing density over the 
course of the next two decades. Is the Fire Service--I mean--
excuse me--is the Forest Service--how could I make that 
Freudian slip?
    Is the Forest Service developing some policies, programs, 
recommendations to us to deal with this impending massive 
complication for your already difficult task?
    Ms. Kimbell. Let me offer two different things. We are 
getting ready to--we have just published this National Forests 
on the Edge. We will be publishing our open space strategy next 
month. It contains several different things. One of those is 
that we have been working very diligently with a number of 
different bodies, looking at things like environmental 
services, looking at carbon, carbon markets. We have the 
science that we can bring to that discussion, and we have been 
doing that. We have been working very hard to bring science 
around carbon accounting, science around water, science around 
all the different things that people take for granted coming 
from forest lands, whether they are public or private. With our 
open space strategy, we are addressing in a very real way what 
is happening with forest land across the United States. There 
are 800 million acres of forest land in the United States.
    Mr. Blumenauer. Let me be clear because my time is running 
out.
    Are you formulating specific policy recommendations to help 
solve the problem--not quantifying it; I appreciate the 
research--but policy recommendations that would make this 
problem diminish?
    Ms. Kimbell. Make it diminish. I think forests are so 
important. You will find in that open space strategy quite a 
number of suggestions for policy considerations in there. 
Certainly there are things that we will take on as an agency, 
but there are some things much bigger than we are as an agency 
that hopefully the U.S. Congress will address.
    Mr. Blumenauer. Thank you very much.
    Mr. Chairman, I apologize. We have a Ways and Means markup 
that is going on now. But my slipping away is not any 
reflection on how I think this is a critical hearing, and I 
hope that there is a way to focus broader attention on the wide 
range of issues here. And I really appreciate you putting it 
on.
    The Chairman. Well, we thank you for being here because you 
have a long career in focusing on these issues. And it helps us 
to hear your questions and comments to the witnesses. Thank 
you. The gentleman's time has expired.
    The Chair recognizes the gentlelady from Michigan, Mrs. 
Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman. And Chief 
Kimbell, we certainly appreciate your expertise on this issue. 
I am not an expert on the issue, but hopefully this question is 
appropriate here. But I am just trying to understand. In your 
testimony, you mentioned about housing density and increasing 
housing density, people moving into areas that are heavily 
forested. And I, along with the rest of the Nation, watched 
with sort of morbid fascination on the TVs, watching this whole 
thing happen in southern California, and there was a lot of 
talk about vegetation and undergrowth that normally would 
either burn off or naturally be destroyed or die off in some 
format, but because there are more people living there now, 
that is not happening. So it essentially acts as an accelerant 
for some of these fires because, I mean, we have had the Santa 
Ana winds forever. It just didn't happen at this time.
    I am just wondering what your thoughts are about having 
such a significant amount of people moving into heavily 
forested areas. And I ask that question in this context coming 
from the Great Lakes. We just had a big debate here about flood 
insurance. And many people were saying, why is the Federal 
Government continuing to pay for housing that is destroyed in 
floods that are going to happen? I mean, it is no secret; it is 
going to flood again at some point, and people rebuild. And I 
actually came from local government. I am a huge believer in 
local control and planning zoning ordinances, having the 
impetus and coming from local planners, et cetera. But do you 
think there is anything that may be appropriate for the Federal 
Government to do to dissuade people from continuing to move 
into heavily forested areas that we may know are going to have 
a forest fire in the future?
    Ms. Kimbell. Well, the Forest Service in working with the 
States and with local agencies has worked very diligently on 
Firewise. It is a program by which we advise local land owners, 
local communities on different things where they might 
structure ordinances, where they might talk about building 
materials and vegetation around homes. And many communities 
have adopted those. Many people have implemented those around 
their own homes, whether or not their neighbors have. But 
certainly all that work in Firewise has been very, very 
important.
    At the same time, we are talking about a population that is 
now 300 million people and, by the middle of this century, 
maybe 400 million people or more. All those people are going 
somewhere. And the national forest lands provide a real draw to 
people seeking amenity values, and so we find in this report, 
National Forests on the Edge, but we have a companion report 
that is about all of America's forests, people are seeking out 
amenity values and locating--because telecommuting is such a 
possibility now and wireless is available in so many places, 
people are choosing to live in those forested environments. But 
they need to do that with the understanding of what they are 
moving into and with the understanding that they need to be 
very aware and treating the landscapes around them.
    Mrs. Miller. Thank you very much. Yes.
    And I yield the balance of my time to the gentleman from 
Oregon.
    Mr. Walden. Thank you. I just want to follow up because the 
question came up about wilderness. And I know we have had some 
fires that originated in the wilderness. What can you do to 
manage bug infestation, overstocking, disease and dead trees in 
a wilderness area?
    Ms. Kimbell. We do not manage natural processes in the 
wilderness areas. By statute, those are managed by mother 
nature.
    Mr. Walden. And so when a fire breaks out in a wilderness 
area, are you able--I know technically you are allowed to 
involve aggressive fire fight tactics. But generally that is 
reserved if there is life or casualty. I mean, isn't that 
right? Don't you employ different fire fighting tactics in 
wilderness area versus outside a wilderness area?
    Ms. Kimbell. We do. But again, that is based on the values 
at risk. We go through quite an analysis at the start of a fire 
to look at values at risk and then assign tactics and 
strategies. So if you are in a very expansive wilderness area--
there is a gentleman here from Montana who was probably 
breathing smoke most of this summer. And they will remember the 
fires this summer in a number of different wilderness areas 
that did not have aggressive fire fighting techniques until 
there were significant values at risk.
    Mr. Walden. Generally, you let those burn if they are in a 
wilderness area?
    Ms. Kimbell. Generally, we manage the edges to avoid having 
them become something much bigger than--to be burning other 
resources, to be getting into other resources.
    Mr. Walden. Because it seems like we are seeing more and 
more of these lightning fires originate, in some cases in the 
wilderness areas where there have been some problems with bug 
and drought infestation and no management and those come 
roaring out of there and then into other areas private and 
public. Are you seeing that?
    Ms. Kimbell. Yes. There have been some examples of that. 
And certainly in southern California, because of the immediate 
values at risk on the very edge of the wilderness boundary, 
there are some times where we have employed more aggressive 
fire fighting techniques than perhaps were experienced this 
summer in the Bob Marshall wilderness area there in Montana. 
But yes, we have seen some examples--because those forests 
within wilderness areas are undergoing all the same stresses 
with climate change that forests outside wilderness areas are. 
They are just as susceptible to a lightning strike.
    Mr. Walden. But with none of the management activities.
    Ms. Kimbell. Correct. Without the management activities, 
including without the access.
    Mr. Walden. And I am sure there are fires that start 
outside the wilderness areas and burn in.
    Ms. Kimbell. Yes. Those are two examples.
    Mr. Walden. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman's time has expired. 
The Chairman recognizes the gentlelady from South Dakota, Ms. 
Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    Chief Kimbell, thank you very much for your work and your 
service. I also want to commend to you the terrific work of the 
Forest Service officials in the Black Hills National Forest and 
the great work they are doing with their local partners, 
including the local timber industry, to pursue a number of 
thinning projects in the wild land urban interface. Just a few 
weeks ago, in addition to having Mr. Walden in South Dakota, a 
couple of years ago, Mr. Norm Dicks, Chairman Dicks was in 
South Dakota just a couple of weeks ago and was also very 
impressed with the efforts there, and looking forward to 
working with him and with you as relates to the budgets 
necessary to not only fight fires but also to continue with 
these important projects, particularly when they do involve 
commercial timber sales that actually allow receipts that can 
continue with additional projects and the patchwork that we 
have in the Black Hills National Forest.
    I certainly empathize with the folks in southern 
California. As you know, we had a devastating fire in the 
southern hills near Hot Springs that resulted in a number of 
homes and other structures lost as well as a gentleman who lost 
his life, firefighters who were injured. And so I come at this 
being convinced by the science that climate change has led to 
the increased frequency, the increased severity, of these fires 
which, while we haven't hammered out the precise and best 
solution yet on how we manage carbon by putting a price on 
carbon, but I am also convinced that as climate change is 
exacerbated, drought, insect infestation, the fuel load, the 
timing of the snow melt, that we also have to manage carbon not 
only to reduce the threat of the forest fires, but to enhance 
the potential of our natural forests as carbon sequestration 
carbon sinks.
    And so I wanted to probe with you an area that I think is 
very important and has vast potential, and that is biomass.
    Now, every forest is unique, and the Ponderosa pine 
regenerates itself at a significant pace. And I have been told 
by some that I have been working with, as they are trying to 
partner to figure out in the Black Hills, do we have 
significant biomass to support either cellulosic fuel 
production or for renewable electricity generation, that the 
average amount of woody biomass just from the slash piles that 
exist would be sufficient to maintain some amount of 
electricity generation if a project was pursued there.
    Can you talk about what activities the Forest Service is 
undertaking to assess potential wood waste as a source for 
biomass either for fuel production, cellulosic fuel production 
or electricity generation? And do you have any barriers 
currently that may inhibit moving forward if your assessments 
and research suggest that that would be a good source to help 
reduce the fuel load?
    Ms. Kimbell. Thank you, and--I can get into that, and if I 
can't get into enough detail, I am going to have to ask Dr. 
Conard to join me.
    Actually, we are doing quite a bit at the Forest Products 
Laboratory in Madison, Wisconsin, in looking at the 
opportunities for using woody biomass for ethanol. And the 
technology is very, very close. There are people in Georgia--
not Forest Service people, private interests in Georgia--
working on the very same or similar kinds of technologies ready 
to go into production just as soon as that technology is more 
certain.
    A barrier right--the--let me back up a little further.
    It would require not only those slash piles from the Black 
Hills National Forest, but would require a woody biomass from 
all forest land. If we were able to access that woody biomass 
that is not currently being used for other products and is 
excessive to the needs for soil processes and wildlife habitats 
and those kinds of things, we estimate that we can offset up to 
15 percent of the fossil fuels currently being burned with the 
use of woody biomass for ethanol.
    Now, there is a measure in there, though, of the price of 
oil. And so it is all--all of this works together. I am not an 
economist, but all of this works together, and it is 
dependent--the efficacy of the technology is also dependent on 
the price of oil and its competitiveness.
    Ms. Herseth Sandlin. Thank you for that response.
    And then if you could address maybe two other issues, not 
just in terms of the potential for biomass, but then the 
thinning projects that are undertaken and reducing the density 
of the stands.
    Do you feel that you have sufficient research, or you are 
pursuing that, that would suggest that by thinning and reducing 
the density of the stands, that that enhances the carbon 
sequestration potential of the forest?
    Ms. Kimbell. Yes. In fact, we have got some excellent 
science that demonstrates that exactly.
    Most recently, an article was published in the Journal of 
Forestry by Dr. Susan Stout, who is one of our project leaders 
in Pennsylvania. And she had looked at different management 
regimes in the Allegheny hardwoods and was able to demonstrate 
that she could maximize carbon sequestration with a managed 
stand; and she had different sort of cultural regimes that she 
had looked at.
    But Susan's study isn't the only one. There are many other 
studies that will demonstrate something similar. We do not have 
science for every single forest ecosystem that we do manage, 
and we are continuing to work on that part of science.
    Ms. Herseth Sandlin. And one final question.
    I know you had stated on page 3 of your written testimony 
that there are important knowledge gaps that we need to 
address, including the estimates of fire emissions that do vary 
widely.
    Do you have any in terms of the AP article, that I believe 
Mr. Walden cited, in terms of the amount of emissions of the 
southern California fires as compared to the amount of 
emissions by power plants? Do you have any comments on the 
statistics cited in that Associated Press article?
    Ms. Kimbell. May I ask Dr. Conard?
    The Chairman. Could you please identify yourself for the 
record?
    Ms. Conard. I am Dr. Susan Conard from the U.S. Forest 
Service.
    So the question--could you repeat it again? Thanks.
    Ms. Herseth Sandlin. Yes. Very quickly. The Chairman is 
being indulgent in letting me ask this question when my time 
was about to run out.
    But based on the knowledge gaps that I think--you know, 
there is some consensus, the estimates are varying widely on 
the amount of emissions from the wildfires. So do you have any 
comments specifically?
    I don't know if you have seen the Associated Press article 
yet that compared the amount of emissions from the southern 
California wildfires to the amount of emissions from the power 
plant it cited, I believe, in the State. Can you elaborate a 
bit on where you are headed with the research as it results to 
identifying the amount of emissions from the wildfires?
    Ms. Conard. Sure. And I actually haven't seen that 
particular article. We do have some independent estimates, that 
we consider quite preliminary, that the emissions from the 
southern California wildfires so far would be equivalent to 
about 3 to 5 percent of the fossil fuel and CO<INF>2</INF> 
emissions in the United States in a typical year. So that is 
probably a similar number.
    In terms of estimating emissions nationally from wildfires, 
there are a number of different lines of work. Probably some of 
the most promising involves combining remote sensing 
information with information on models and measurements of full 
consumption in individual fires; and as that work proceeds, the 
numbers get more and more similar from different studies.
    But I think right now, if you looked in the literature, you 
would see a variation of two or three times in the estimates.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. I just quickly want to ask a couple of questions 
before our votes get called.
    Chief Kimbell, thank you very much for your testimony. I 
heard or read that around Lake Tahoe, that area of forest that 
the Angora fire burned, received last winter 29 percent of its 
average snowpack. Is that right?
    Ms. Kimbell. I can't confirm that number, but I know it was 
a reduced snowpack.
    Mr. Hall. Okay. It has been mentioned in your testimony and 
others' comments that either reduced snowpack or earlier 
snowmelt obviously causes a drier forest and a longer fire 
season.
    If you could, comment on thinning. There are different--
people have different ideas of how to thin, and I believe 
somebody here or members on both sides of the aisle are 
thinning the underbrush and the dead trees and removing fuel.
    There are also those who would like to thin by taking out 
commercially viable trees, and I wonder if you would comment on 
the--how efficient it is to remove healthy, large, commercially 
viable trees in terms of preventing or slowing fires.
    Ms. Kimbell. Everything depends on the site you are working 
on, and if your goal is to have healthy, vigorous trees on 
the--when you are finished with whatever projects you are 
undertaking, then you are going to be looking at a number of 
things, and one of those is available moisture.
    It is the surrounding country, what you have on that site, 
what you anticipate might be a successful tree species or a 
successful individual tree into the future using the 
predictions of temperature, moisture, all of those things. So 
it is going to vary from site to site.
    There are some sites that would be able to support all of 
what some people might want to define as ``larger.'' There are 
other sites that might be able to support a smaller number of 
trees.
    If a stand starts out at 6,000 stems to the acre, and it 
can reasonably support 40 large trees, there is a process of 
elimination when you get to those 40 large trees. Mother Nature 
has had a very interesting way of doing that on her own, and 
yet now we have people living in and amongst those forests.
    So if the goal is to have a healthy, vigorous forest, it is 
going to be very important that the silva-culturalist, the 
person who is writing that prescription, is aware of what is 
happening there in temperature, water, soil processes, and all 
of those things.
    Mr. Hall. So as Mother Nature makes the choice, we may want 
to help by removing the ones that don't make it from sprouts to 
full-size trees?
    Ms. Kimbell. One of Mother Nature's tools is fire.
    Mr. Hall. I wanted to ask just quickly, are there any 
natural enemies of the bark beetles and other insects who have 
been decimating the forests, who perhaps are no longer there, 
and whether they could be reintroduced?
    Ms. Kimbell. One of the things that we have been seeing 
with climate change is a real difference in bird activity: when 
birds are nesting, where they are nesting, what elevation they 
are nesting. And for some of these insects that are forest 
pests--that is how they are classified--birds are an important 
part of that control mechanism.
    We are also seeing that with the temperatures, many insects 
are having two breeding seasons in a year instead of one.
    One of the natural controls has been temperature, and, you 
know, certainly that is something we have seen--actually we see 
it in Georgia and we see it in Montana--multiple broods of 
insects that aren't part of our historical information. But 
also we are seeing the movement of birds and just trying to 
figure out how those birds are now interacting with the insects 
that are moving around.
    There are viruses, there are fungi, there are other insects 
that are--that prey on maybe the damaging insect.
    I had a fascinating conversation with one of our 
researchers who had just been to China looking for tiny, tiny, 
teeny insects that feed on--the emerald ash borer; and the 
emerald ash borer, if you are in the Lake States, is just a 
huge threat to the urban forests all over the eastern United 
States.
    So there are a lot of natural enemies. We are working with 
those and also examining what is happening with climate change 
that changes the efficacy of all of those.
    Mr. Hall. And you would say that increased temperature 
would make all of these--the insects, the viruses, the fungi--
have more opportunity to attack the forests?
    Ms. Kimbell. It makes things different, and that is the 
part that we are continuing to work with the science on.
    For some insects like pine beetles, it has made them 
greater in number and covering larger areas.
    Mr. Hall. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    We will have time for Mr. Inslee and Mr. Cleaver for 5 
minutes.
    The Chairman recognizes the gentleman from Washington 
state, Mr. Inslee.
    Mr. Inslee. Thank you, Chief. I appreciated your testimony, 
but I have a lot of sadness about it for a couple of reasons.
    One, I have seen firsthand the devastation that climate 
change is causing our forests. I was up in the national forest 
last summer at Robin and Tuck Lakes, places I have been for 
decades, and I have seen it ravaged by these beetles, literally 
one falling off my hat as I was talking to the forest ranger. 
And I said, What killed all of these trees? He said, Look at 
the brim of your hat. And there was a little worm falling off 
the brim of my hat.
    I was in the Sawtooth last winter. I talked to a guy who 
was having to build these firebreaks because of the enormous 
beetle kill associated probably with climate change in Idaho. 
So I have seen this firsthand.
    It is very painful to watch the unfolding death of our 
forests, and what I have a real sadness about is, despite your 
best efforts and the best efforts of the great people who work 
for you in these forests, the policies of George Bush are 
dooming these forests.
    It doesn't matter what you do, as long as George Bush 
stands in the schoolhouse door and prevents us in Congress from 
doing things to stop global warming, these forests are going to 
die. It doesn't matter what you do; the forces are too great. 
As long as George Bush allows unchecked CO<INF>2</INF> 
emissions into the area, these forests are going to die.
    And so I have a great sadness about the position you are 
in, trying to save that which is unsavable when the President 
of the United States won't help us deal with this mortal threat 
to these forests.
    When I say ``mortal,'' I mean mortal. Dead trees. When you 
go up to northern Washington, you see miles of dead trees up 
there right now. Same thing in Idaho. I don't know if George 
Bush has ever looked at that.
    And I want to enlist you to really do something about this 
that can succeed in saving these forests. So I want to ask you 
to do what you can to really impress upon the President of the 
United States how destructive his policy is to these forests.
    I want to ask you, have you told George Bush personally 
that his policies are killing the forests over which you have a 
stewardship responsibility?
    Ms. Kimbell. No.
    Mr. Inslee. That is a start.
    Ms. Kimbell. But I have been very outspoken about the need 
to have healthy, vigorous, growing forests; and there are a lot 
of different tools that we have talked about today to have 
healthy, vigorous, growing forests. It is so important to be 
cleaning carbon emissions from the air. It is so important to 
be sequestering carbon to have healthy vigorous forests, not 
just on national forests, but on all 800 million acres of 
forest.
    Mr. Inslee. I agree with you. But what I am trying to say 
is that no matter what you do--and I think your intentions are 
normal here. No matter what you do, as long as this climate is 
changing to entirely different regimes in these areas, they are 
going to be dead.
    And I want to know whether--would you be willing to try to 
get in to see the President of the United States and personally 
tell him and show him, with pictures, the devastations that are 
happening in these forests so that maybe he would start to work 
with us to solve this problem?
    Would you do that for us?
    Ms. Kimbell. I would certainly be willing to invite the 
President of the United States to come visit some national 
forests with me and some of my expert staff to look at the 
health of forests across the United States.
    Mr. Inslee. I am thrilled by that. I hope you will do so, 
and I hope you will let us know what the President's response 
is, because we need his help to solve these problems these 
forests have.
    Thank you for that.
    As far as what is happening to cause these forest fires, I 
wanted to put in the record, Mr. Chair, an article by Dr. Al 
Westerling and several others from the University of California 
at Scripps, that basically looked at the fire.
    This came out in Science Express on July 6, 2006. And they 
looked at these records and they found that the greatest 
increases in the fires were in the mid-elevation northern 
Rockies forest where land use histories have relatively little 
effect on fire risks and are strongly associated with increased 
spring and summer temperatures and an earlier spring snowmelt. 
That is an abstract of this article.
    Basically what this article suggests is that the huge 
increase in forest fires we are experiencing are probably more 
associated with climate change than anything else, of increased 
spring and summer temperatures and earlier spring snowmelt for 
drier forests.
    Now that, to me, means that even if we do better serve a 
culture, it means that our forests are going to die.
    So I appreciate your offer. I am going to follow up with 
you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 58243A.013
    
    [GRAPHIC] [TIFF OMITTED] 58243A.014
    
    [GRAPHIC] [TIFF OMITTED] 58243A.015
    
    [GRAPHIC] [TIFF OMITTED] 58243A.016
    
    [GRAPHIC] [TIFF OMITTED] 58243A.017
    
    The Chairman. We just have time to also recognize the 
gentleman from Mississippi, Mr. Cleaver, for his 5 minutes of 
questions.
    Mr. Cleaver. Thank you, Mr. Chairman, and the Chief for 
your questions here.
    We are running late so we--a number of us went to Greenland 
a few weeks ago and painfully listened to some Greenlanders 
talk about how indigenous fish were leaving the area in a 
search for colder waters.
    And listening to you, you didn't quite get there, but are 
there certain species of birds that are now going further and 
further northward, maybe even into Canada, because they--the 
warming climate is not conducive to reproduction and hunting 
and so forth?
    Ms. Kimbell. We have very good evidence that there are a 
number of birds that are changing their use patterns, changing 
their habits. Fish, we are very concerned about. It has been 
estimated that a 2-degree temperature rise in the waters that 
support many of our trout fisheries would no longer be able 
to--if there were a 2-degree rise, would no longer be able to 
support those trout.
    So we are very concerned about all of that and have been 
studying it.
    Grizzly bears in the Yellowstone ecosystem have used for 
decades the seeds from whitebark pine. Well, whitebark pine is 
moving higher and higher in elevation, and those lower in 
elevation are no longer thriving; and we are very concerned 
about that, and we have been studying that.
    So these are all pieces of the climate change picture that 
we do have science resources assigned to; and we need to learn 
more about it.
    Mr. Cleaver. I was recently in Aspen, and they killed 12 
bears over the summer. Bears who are now coming down into the 
city because of the bark and the inaccessibility of their food, 
and so where it is creating a conflict with humans, it will 
result in some killings.
    I think I probably should go vote since----
    Ms. Kimbell. We could talk all day about grizzly bears, and 
I did get to Missouri this summer as well, and you have got 
some beautiful country on the Mark Twain Forest.
    Mr. Cleaver. God bless you.
    The Chairman. And he is actually a Reverend, so that means 
something. From an ordinary member, it would mean nothing.
    So we thank you very much, Chief Kimbell, for your 
excellent testimony; and we look forward to working with you 
right in the future.
    We have three roll calls on the floor of the House. We will 
take a brief recess, and we will return in about 20 minutes.
    [Recess.]
    The Chairman. The hearing is reconvened and our very 
distinguished second panel will now be recognized.
    First, I will ask Dr. Steven Running who is a distinguished 
forest ecologist who has published over 240 scientific 
articles. As a chapter lead author for the Fourth Assessment 
report of the Intergovernmental Panel on Climate Change, Dr. 
Running shares the recently announced Nobel Peace Prize with 
his colleagues.
    And we extend our congratulations to you.
    He is a professor at the University of Montana and a Fellow 
of the American Geophysical Union, and he is a recognized 
expert on climate modeling and specifically on the impacts of 
climate change in North America.
    So we welcome you, Doctor. Whenever you are ready, please 
begin.

    STATEMENT OF DR. STEVEN RUNNING, PROFESSOR OF ECOLOGY, 
                     UNIVERSITY OF MONTANA

    Mr. Running. Good morning, Chairman Markey, and members of 
this Select Committee.
    I thank you for the opportunity to come and testify on 
wildfire and climate change; and I think what I want to do, 
rather than going through much of my prepared discussion, which 
has been covered at length this morning, I want to really focus 
on a couple of issues that I think are particularly important 
for this committee to understand.
    And so, first, for the record, as an IPCC author, let me 
read the exact text that I put in the IPCC report.
    ``Since 1980, an average of 22,000 kilometers squared per 
year has burned in U.S. wildfires, almost twice the average 
from 1920 to 1980. The forested area burned in the Western U.S. 
from 1987 to 2003 is 6.7 times the area burned from 1970 to 
1986.
    ``The wildfire burned area in the North American boreal 
region has increased from 6,500 square kilometers per year in 
the 1960s to 29,700 square kilometers per year in the 1990s.''
    And as of October 29th, we have now burned 8.7 million 
acres of land in the U.S. this year.
    So these are the statistics I put in the IPCC report, and I 
think what I want to do is just make two critical points for 
the time that we have here.
    When we look at the causes, what is causing this real 
acceleration in wildfire?
    There are four important trends that we are aware of: 
Clearly, our forests and rangeland have grown back over the 
last century from overgrazing and overlogging in the 1800s. So 
some of this is a natural ecological recovery.
    We add to that a second factor of the fire suppression, and 
we have already heard about that from the Chief earlier this 
morning. Ninety-eight percent of the fires are now suppressed. 
So we really have ecosystems throughout the country that are 
growing back to a point where they have actually overgrown the 
carrying capacity of the landscape.
    And a fire is a natural way for an ecosystem to return to 
its natural equilibrium, and we have taken that away by 
suppressing the fires.
    So, in a way, you might think that our ecosystems have 
overshot the climate that would support the forests, 
particularly in the West.
    I want to make then the second point of how important 
snowmelt and snowpack is for all of the northern forests.
    Obviously, snow is a natural fire retardant. When there is 
snow on the ground, nothing is going to burn, and we now see 
snow melting 1 to 4 weeks earlier than we did 50 years ago. 
That is not only lengthening the fire season, but it is 
bringing forests at higher elevations into a vulnerable 
condition of drought. That didn't used to happen, just 
literally because there was snow on the ground. So the 
acceleration of wildfire in the wild western forests is very 
much a function of this early snowmelt.
    The last point I want to make is where the future is going. 
And before IPCC, there were over a dozen climate models run 
hundreds of different times. In my written testimony, on figure 
4, I showed the results of what all of these GCMs project for 
the future.
    And I summarized just a single graph to save time, and 
basically that one graph, this is a consensus of seven 
different GCMs, is that western North America summertime 
temperatures will be 3 to 5 degrees centigrade warmer than they 
are now. And in about 50 years----
    The Chairman. Which translates in Fahrenheit to?
    Mr. Running. To about 5 to 8 degrees Fahrenheit warmer in 8 
years. And the important point is, there will be no increases 
in precipitation.
    So I can only conclude from the best GCMs run for the IPCC 
report that the Western U.S. is in for longer, hotter summers, 
and I can conclude nothing else but that is going to increase 
wildfire dynamics.
    So with that, my time is up. And those are the key points I 
want to make.
    The Chairman. So it is 5 to 8 degrees warmer and no more 
rain over the next 50 years.
    [The statement of Mr. Running follows:]
    [GRAPHIC] [TIFF OMITTED] 58243A.018
    
    [GRAPHIC] [TIFF OMITTED] 58243A.019
    
    [GRAPHIC] [TIFF OMITTED] 58243A.020
    
    [GRAPHIC] [TIFF OMITTED] 58243A.021
    
    [GRAPHIC] [TIFF OMITTED] 58243A.022
    
    [GRAPHIC] [TIFF OMITTED] 58243A.023
    
    [GRAPHIC] [TIFF OMITTED] 58243A.024
    
    [GRAPHIC] [TIFF OMITTED] 58243A.025
    
    [GRAPHIC] [TIFF OMITTED] 58243A.026
    
    [GRAPHIC] [TIFF OMITTED] 58243A.027
    
    [GRAPHIC] [TIFF OMITTED] 58243A.028
    
    The Chairman. All right. Our next witness is Dr. Michael 
Medler. Dr. Medler is an expert on fire ecology and wildland 
firefighting. He is currently a professor of environmental 
studies at Western Washington University. He is also the 
President-elect of the Association For Fire Ecology and a 
member of the Firefighters United for Safety Ethics and 
Ecology.
    Dr. Medler's research focuses on analysis of historical 
wildfire patterns in the Western United States. He actually was 
a wildland firefighter during the 1980s in the Willamette 
National Forest in Oregon and helped fight the historic 
Yellowstone fires in 1988.
    So we thank you. Please begin.

STATEMENT OF DR. MICHAEL MEDLER, ASSOCIATE PROFESSOR OF WESTERN 
 WASHINGTON UNIVERSITY AND PRESIDENT-ELECT OF THE ASSOCIATION 
FOR FIRE ECOLOGY, REPRESENTING FIREFIGHTERS UNITED FOR SAFETY, 
                       ETHICS AND ECOLOGY

    Mr. Medler. Thank you, Chairman Markey, and members of the 
committee.
    I want to thank you for this opportunity to testify in 
climate change and fire management.
    As you said, I am a President-elect of the Association for 
Fire Ecology and also a member of the Firefighters United for 
Safety, Ethics and Ecology. And many of the important 
scientific points have been made quite well today, but I would 
like to make some other points, about fire management, in 
particular, and firefighting.
    As you said, I worked as a firefighter in the Forest 
Service in the 1980s and really cut my teeth at the Yellowstone 
fires in 1988. And it has been a while since I have had boots 
on and cut fireline, but the members of AFE and FUSEE, are 
currently serving on the firelines, even now in southern 
California, and would like me to talk about some of our shared 
concerns about changes in fire behavior resulting from climate 
change.
    Fire behavior is changing. In Yellowstone in 1988, the 
grizzled old firedogs told us that we would never see fire 
behavior like that again because they never had. Now, most 
summers bring us new record-breaking fires and fire seasons, 
and the fires we call big today can be 10 times as big as the 
ones 20 years ago.
    On the firelines, it is really clear that global warming, 
global climate change, is changing fire behavior and creating 
more and bigger, severe fires; and we have had a fair bit of 
testimony to that extent.
    But this isn't the only news here. Many firefighters we 
know have commented that they are facing more extreme fire 
behavior than they have ever witnessed, and among fire 
scientists there is a broad consensus that the fire frequency 
and size and severity will continue to occur.
    So weather does drive a lot of these fire events. We are 
experiencing weather phenomena that are unprecedented in the 
historical record. And because of these changing patterns, as 
many people pointed out here, the wildfire season in the West 
is roughly 78 days longer than in 1987, a really profound 
change.
    This is taxing on the endurance of the firefighting crews 
and draining budgets of land management agencies, as we have 
heard.
    Because of this behavior, firefighters have been forced to 
change firefighting tactics. Perimeter control and its tactics 
of anchor, flank, and hold fires have been almost futile in 
megafires. Firefighters in the northern Rockies had to give up 
aggressively fighting fires because it was extremely unsafe and 
almost completely ineffective. Instead, they have adopted a 
strategy of indirect attack and point protection to make sure 
individual homes and communities are protected. And they are 
forced to light very large backfires that were also burning 
with high severity.
    Meanwhile, communities are sprawling into high danger 
areas. With severe weather conditions, firefighters are often 
unable to keep fire from spreading into vulnerable communities. 
And this will be a factor all over the country, not just the 
West. Unfortunately, development patterns and the designs of 
homes rarely consider wildland fires at this point, and this is 
putting both homeowners and firefighters in harm's way.
    Firefighters are rightly becoming unwilling to risk their 
lives to protect individual homes that are located in absurdly 
indefensible locations like at the top of narrow chimney 
canyons or built with highly combustible materials or 
completely surrounded by dense, flammable vegetation.
    There are two kinds of fire requiring two very different 
sets of fire policies. Fire management policies need to 
distinguish between back country wildland, many of which are 
comprised of fire-adapted ecosystems, and front country 
communities with built environments, many of which are largely 
unprepared for fire.
    Conflating wildland fire policies and urban policies will 
lead to inappropriate forest management and ineffective 
community protection policies. Stated simply, if our homes and 
communities were far more fire resistant, we would have it as a 
tool rather than an enemy in the back country. Ecological 
restoration programs could carefully reintroduce fire to 
prescribed burning and wildland burning use.
    However, some of my colleagues speculate that we have 
perhaps a 10-year window to reintroduce fire at a landscape 
scale and still have effective control over fire behavior, but 
beyond that, we may lose this control due to climate changes 
and the temperature changes as pointed out here.
    In rural communities, it is getting late now even to 
address some of these needs for land use zoning, revised 
building codes and enforceable vegetation management 
ordinances. Climate change is going to create more fire-prone 
environments.
    We have to break the cycle of new homes being rebuilt in 
the same places with the same materials as the homes that were 
destroyed by the last fire. Ideally, our goal should be to 
create a fireproof set of structures that are able to dwell 
sustainably in a fire-permeable landscape.
    We need to be proactive, not reactive, to manage wildland 
fires in a changing climate. Our traditional strategies that 
focused on prevention and suppression have become increasingly 
ineffective and unsustainable.
    Large wildfires defy our ability to put them out. They 
often burn until the weather changes. The attempt to extinguish 
all fires has, in fact, caused huge costs to taxpayers, 
significant environmental damage, and put firefighters at 
unnecessary risk.
    It is important to acknowledge that there are forces in 
nature that cannot be controlled and perhaps megafires should 
be viewed like hurricanes, earthquakes and volcanic eruptions, 
natural disturbances that we must adapt to since we can't 
prevent them. This is not fatalism, but instead a plea for 
realism and a change from reactive fire suppression to 
proactive fire management.
    The Chairman. I thank the witness. The witness' time has 
expired. And you will have plenty of time in the question-and-
answer period to expound upon your points.
    [The statement of Mr. Medler follows:]
    [GRAPHIC] [TIFF OMITTED] 58243A.029
    
    [GRAPHIC] [TIFF OMITTED] 58243A.030
    
    [GRAPHIC] [TIFF OMITTED] 58243A.031
    
    [GRAPHIC] [TIFF OMITTED] 58243A.032
    
    [GRAPHIC] [TIFF OMITTED] 58243A.033
    
    [GRAPHIC] [TIFF OMITTED] 58243A.034
    
    The Chairman. Our next witness, Michael Francis, is the 
Deputy Vice President for Public Policy and the Director of the 
National Forest Program at The Wilderness Society. He is a 
nationally recognized expert on these issues.
    We recognize you, Mr. Francis. Whenever you are ready, 
please begin.

 STATEMENT OF MICHAEL FRANCIS, DIRECTOR OF FOREST PROGRAMS AND 
 DEPUTY VICE PRESIDENT, THE WILDERNESS SOCIETY, ACCOMPANIED BY 
                  TOM DeLUCA, SENIOR SCIENTIST

    Mr. Francis. Thank you, Mr. Chairman, members of the 
committee. I am accompanied today by Mr. Tom DeLuca, who is 
sitting behind me here, who is going to be available to answer 
questions that go well beyond my pay grade.
    First, our thoughts are with all of those whose lives, 
homes, and livelihoods were threatened by the recent fires. We 
also salute the firefighters, risking their lives, as well as 
the many community volunteers that helped the affected 
communities. Their efforts, bravery and determination to 
demonstrate that American sense of community is alive and well.
    Mr. Chairman and members of the committee, there are five 
key points that The Wilderness Society would like to leave you 
with today.
    Number one, wildfire is a regular and healthy occurrence in 
a forest ecosystem. Our forests have evolved over the last 
10,000 years on the North American continent, and fire has been 
a critical ecological process. We have learned that we cannot 
stop the fires and we cannot exclude them from the forest. And 
slowly, I think, the country is beginning to understand that we 
must be fire tolerant in fire-dependent ecosystems.
    Second, our climate is changing, as we had a distinguished 
panel member here state about the impact of temperature 
increase and water regimes. One of the points I pick out from 
the IPC report is its projection that precipitation will 
decrease in the southern U.S.--southwestern U.S.--and will 
cause drought through much of the 21st century. Historically, 
increases in fire--fire increases correspond to warmer, drier 
periods.
    Three, climate change makes forests more susceptible to 
changes in wildland fire behavior and in the seasons. Warmer 
winters contribute to summer drought. Reductions in snowpack 
depth and duration alter timing and volumes of water runoff, 
leading to longer summer droughts, larger water deficits and 
more severe fire seasons.
    The changing climate in fire behavior calls for changing 
U.S. Forest Service management policy direction to one of 
ecological restoration, stewardship to restore and maintain 
forest resiliency in the face of global warming.
    Four, wildland fire in the long term is at least carbon 
neutral and potentially positive--or negative. I am sorry, 
negative.
    Harvesting trees will not stop fires; such harvests avert 
the causes or impacts of climate change. There is cycled carbon 
and noncycled carbon. Forest carbon represents the type that 
constantly cycles through the environment such as the carbon 
that humans exhale and wildfires release. Fossil fuels 
represent the type that nature permanently stores in the Earth.
    All carbon released in a fire has been cycling back and 
forth between the forest and the atmosphere for a millennium. 
Fire changes the location and the state of the carbon in the 
system, but it does not change the amount.
    About 5 to 10 percent of biomass killed by wildland fire is 
converted into charcoal, a uniquely stable form of carbon which 
will remain stored for thousands of years. Also, forest 
regeneration after fires recaptures carbon lost during the 
fires; in other words, over the long run, fire may help forests 
store carbon, not release it.
    Five, targeting fuels reduction around communities can 
reduce the threat of wildland fire to people, their homes, and 
their communities. The wildland fire triangle says that three 
factors could affect fire behavior--topography, weather, and 
fuels.
    Though weather will increasingly play the trump card in 
influencing fire behavior, managing fuels will continue to be 
important. Research shows that hazardous fuels reduction 
treatments in appropriate types of fire regimes and locations 
are often effective in decreasing the severity of subsequent 
fires. However, it is not feasible nor recommended that all 
forests be thinned.
    Faced with decades of long fire seasons and the near 
certainty of large blazes across the landscape, it is more 
important now than ever before to apply the tools of hazardous 
fuels reduction surgically and scientifically. Without 
exception, the first priority of hazardous fuel reduction and 
fire management should be keeping families safe and protecting 
communities.
    Thank you.
    [The statement of Mr. Francis follows:]
    [GRAPHIC] [TIFF OMITTED] 58243A.035
    
    [GRAPHIC] [TIFF OMITTED] 58243A.036
    
    [GRAPHIC] [TIFF OMITTED] 58243A.037
    
    [GRAPHIC] [TIFF OMITTED] 58243A.038
    
    [GRAPHIC] [TIFF OMITTED] 58243A.039
    
    [GRAPHIC] [TIFF OMITTED] 58243A.040
    
    [GRAPHIC] [TIFF OMITTED] 58243A.041
    
    The Chairman. Thank you, Mr. Francis, very much.
    The Chair will now recognize himself for a round of 
questions.
    I asked Chief Kimbell on the first panel if she considered 
global warming's impact on wildfires a threat to the public 
welfare. I would like to ask each of you if you could briefly 
tell me if you believe that it is.
    Dr. Running.
    Mr. Running. I think there is no question that as we look 
at the climate trends that we are documenting, we look at the 
projected trends that the GCMs predict for the future, and we 
see the current acceleration of wildfire and the acceleration 
of people building homes in fire-prone areas, it all just adds 
up to this issue getting bigger and bigger.
    The Chairman. Dr. Medler, please.
    Mr. Medler. I would like to concur with Dr. Running. There 
is a whole set of complicated issues that come together, but 
clearly most of the models and many of our predictions indicate 
we are going to be seeing increased fire behavior, fire 
severity.
    The Chairman. Because of global warming?
    Mr. Medler. I am willing to say that.
    The Chairman. Mr. Francis.
    Mr. Francis. I would say ditto to what my colleagues have 
said. It is one aspect that we are going to see as a result of 
global warming, so it is a threat as global warming is a 
threat.
    The Chairman. Now, again, we had an online question that 
came in, and that was from a gentleman in Missouri who e-mailed 
us a question.
    It was: As experts in fire science or forest policy, do you 
worry about the expansion of wildfires across the country to 
areas that have not typically experienced them and may be 
unprepared to deal with them?
    And relate it to global warming, please.
    Dr. Running.
    Mr. Running. Yes. I think we are already seeing areas that 
have not had historical fire, that with forests under more 
stress, this is an expectation that you would get from 
ecosystem theory.
    The Chairman. Dr. Medler.
    Mr. Medler. Well, yeah.
    To continue, there is plenty of evidence that we are seeing 
these changes in fire behavior. There are also land management 
issues that have left large fuel buildups in some areas, not 
such a significant problem in others. And climate change, in 
particular, will make a lot of these areas vulnerable to fire 
beyond our historical expectations, and in many areas where we 
may not be used to seeing it quite as often as before.
    I worked previously in New Jersey and we were getting 
surprised by large fires.
    The Chairman. And you relate that to global warming?
    Mr. Medler. That was 5, 6 years ago. I am hesitant to do 
that.
    The Chairman. Mr. Francis.
    Mr. Francis. I would like to refer that answer to Tom 
DeLuca.
    Mr. DeLuca. My name is Tom DeLuca. I am a senior scientist 
with The Wilderness Society.
    The Chairman. Okay.
    Mr. DeLuca. As Dr. Steve Running had pointed out, 
temperatures are increasing with climate change, and we have 
associated with that temperature change the same ecosystems 
that had existed in these locations under lower temperatures.
    So the long and short of it is, yes, we are going to see 
higher biomass--we have higher biomass; that what exists in 
that temperature and that environment and those ecosystems will 
experience fires that would not be characteristic.
    The Chairman. Now, Mr. Francis, some people have alleged 
that environmental groups are somehow responsible for the 
increase in wildfire because they have blocked projects to 
remove brush or to do controlled burns in order to protect the 
rest of the forests. But in 2003, the GAO found that 97 percent 
of these types of projects go forward without any opposition at 
all.
    How would you respond to the allegations that litigation by 
environmental groups is actually responsible for the wildfires?
    Mr. Francis. I would respond by saying, look at the GAO 
report. The fact is, 97 percent of these projects make it 
through in the time that is set out by the law. A few do get 
litigated because they are bad projects. They are not projects 
that are supportable by science or the public. I mean, the 
Chief talked about the public dialogue and the public being 
involved in looking at what happens around their communities, 
and therefore, you need to involve that public.
    And the Forest Service has a good record of having an 
appeal record that allows the public to participate when they 
strongly disagree. That is part of the process. It doesn't 
really delay anything on their project.
    The Chairman. Dr. Running, could you respond to that, 
briefly?
    Mr. Running. I really have nothing more to add than what I 
see around Montana. And that is that there are--occasionally 
have been appeals that take a number of years to work through 
for things like salvage logging after fires and the value of 
the timbers then lost while the appeal process goes through.
    But those, I don't have specific knowledge of the details 
on those.
    The Chairman. Thank you, Dr. Running.
    The Chair recognizes the gentleman from Washington state, 
Mr. Inslee.
    Mr. Inslee. Thank you all, and I want to welcome Dr. Medler 
from Western Washington. If you ever see a kid named Joe on 
campus, tell him to do his homework.
    And you have some great students up there who have been 
working on clean energy issues. I am going to be talking to 
them about this book, Apollo's Fire, about a clean energy 
future for the country; and I note that because my sort of 
sense of your professional work--and I really appreciate your 
professional work, all three of you, in this regard.
    But I really do believe as long as global warming continues 
to ravage these forests, there is really nothing that is going 
to significantly change the devastation occurring as long as we 
have these huge changes in the climactic system. And if that is 
true, it is incumbent upon us to develop a clean energy system 
that will indeed stop global warming to save these forests.
    And when I say ``save'' them, I gotta tell you, it is just 
astounding to me. You know, we talk about this academically, 
but when you are up there in the mountains and you see mile 
after mile after mile of dead trees, it is stunning. And I have 
been hiking those places for 56 years.
    So I guess I will ask for your comments on that position. 
Is that really the fundamental thing we have to do to save 
these forests, which is to stop this human-caused climactic 
change? And I would ask for any of your comments.
    Mr. Medler. I would chime in, agreeing with Mr. Francis 
here, that we have a complicated situation in that fire and 
ecosystem processes are just a part of this. As you are 
pointing out, in a global climate change situation, if we don't 
deal with the climate change itself, we are going to be stuck 
with immensely problematic forest issues. We have estimates as 
high as 190 million acres that are in need of some sort of 
treatment, and this includes the kinds of forests you are 
talking about.
    And I am also very familiar with literally hundreds of 
acres, hundreds of thousands of acres at times, of what look 
like dead trees. Those are massive numbers. One hundred ninety 
acres is not the kind of area that you can thin by hand and 
clear out. Fire is the process we are going to need to 
reintroduce to do a lot of that treatment, but that is 
extraordinarily complicated because of policies that put 
housing digitized in there that is completely unprotectable.
    So one of the critical elements is to let us use fire as a 
tool where it can help, and to do that, we need to protect 
communities.
    As for your question about global climate change itself, I 
would concur that we need to deal with the imbalances that Mr. 
Francis was talking about. The globe as a system has got a 
certain amount of carbon in the biosphere and the atmosphere 
for quite some time, and that is what we are changing now by 
reintroducing carbon that can be tens, hundreds of millions 
years old, changing the total balance of the system and 
changing temperatures that allow insects to have two 
reproductive cycles or maybe, more importantly, survive through 
the winter.
    In Canada, directly north of where I live, there are 
massive areas of insect damage, fire waiting to happen. There 
are literally millions of acres of dead trees, as you were 
pointing out; it is staggering when you drive through these 
large areas. And they can be directly attributed to what seemed 
like subtle temperature changes, just enough to allow insects 
to survive the winter.
    Mr. Inslee. I heard--or maybe I read it--that fire season 
has increased 78 days. Is that correct? What percentage of 
increase is that? I don't know how many days a fire season is.
    Mr. Running. Well, a fire season is obviously different in 
different climates, but that is on the order of a 20 to 30 
percent increase in the number of days; and we expect another 
20 or 30 percent increase with the climate model projections 
for the future.
    So we are in the middle of the trend that has been 
progressing for 30 to 40 years, and there is no reason to 
believe it is going to slow down with any of the climate model 
projections we see.
    Mr. Inslee. Well, I think that suggests that we need to get 
going in Washington, D.C., to do something about climate 
change. And I have to tell you, we are on the cusp of doing 
that. We are making some progress here. We need a President who 
won't stand in the way of progress to save these forests.
    And I appreciate that you are trying to spread the word 
about this, because not only is a forest going to burn, but we 
are going to have people on that interface in danger, too.
    So thank you for your professional work.
    Thank you.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I would like for the three of you--to get the comments from 
the three of you on this issue.
    I have always been fascinated by--hopefully, it wasn't 
cynicism, but I have always been fascinated by people who build 
their homes on cliffs and then seem stunned when they fall 
during a mudslide. I mean, maybe it is because I can't afford 
to build one. But it is amazing to me.
    And I am now becoming a little concerned about people who 
build their homes in areas that are prone to wildfires, 
previously, now the megafires.
    And the concern is more than for the home. If the wildfires 
represent about 10 percent of the greenhouse gases, as is being 
suggested by the science, that is one level of a problem that 
has an adverse effect on human beings. But the one that is 
troubling me more is the prospect of airborne particles that 
result from a wildfire that the PM-10, the 10 micrometers and 
smaller particles that come up, that apparently a mask cannot 
filter. They are so small that they penetrate the masks that 
are being used in the area to protect human beings.
    Do you think we are going to approach a time when we might 
need to discourage people from living in areas that could be 
ignited quickly where a mega wildfire could start?
    We have got the greenhouse emissions and now the micro 
particles that--I am not sure what kind of medical damage that 
is doing. It can't--it is not going to be helpful.
    So do any of you have--
    Mr. Running. Well, let me first address the immediate 
public health issue you bring up.
    In Missoula, Montana, this summer, for over a month we were 
under a--first, a Stage One, and then I think we reached a 
Stage Two air pollution alert from the wildfires. And this 
meant that all of the football teams weren't practicing, they 
were encouraging people with breathing problems to stay 
indoors.
    I mean, this went on for weeks and weeks in our community, 
a very immediate public health issue because of the wildfires' 
smoke. So there is no doubt that when you are in these 
wildfires and in the downwind of these smoke plumes, it is an 
immediate health issue for the public.
    I think the longer term of where we have structures built, 
it is very much like people building all of the coastline 
houses in the hurricane areas with sea level rise. The same 
thing. We have allowed structures to be built in places that 
are nondefensible, and I think we are reaching that same sort 
of issue in the forested land around the country with this fire 
issue now.
    And I think while I have the mike, I will certainly 
reiterate also in the long run, only reducing our fossil fuel 
emissions is going to get us ahead of this problem.
    Mr. Cleaver. So, yeah, essentially you are saying that 
there could be some damage to the human creature as well as the 
other creatures and that, you know, being the United States, we 
have the constitutional right to be stupid.
    Mr. Running. That is correct.
    Mr. Cleaver. Thank you, Mr. Chairman.
    The Chairman. We thank each of our witnesses.
    Let's ask you to do this, in reverse order, and I will tell 
you what we will do: We will allow the gentleman accompanying 
you, Mr. Francis, to also give us--give us the 1 minute you 
want us to each remember about this relationship between global 
warming and wildfires. And try to summarize in 1 minute the 
parting shot that you want us to each remember.
    Mr. DeLuca. Climate change is causing an increase in the 
occurrence and size of wildfires in the United States. 
Wildfire, on the other hand, is a natural process that is 
necessary in our forest environments. Wildfires should be 
allowed to burn in natural landscapes that are far from the 
community zone and that have the opportunity to reinvigorate 
those forests and reduce the fuel loading in those forests over 
the long term and maintain the healthy vigorous forests that 
Gail Kimbell referred to today.
    Intense efforts should be made in the wild land urban 
interface to reduce the fuel loading and protect those 
structures and the fire fighters and people's lives.
    The Chairman. Thank you, sir.
    Mr. Francis.
    Mr. Francis. I will pick up from where Tom left off about 
the wild land urban interface. We need to be--in this next 
century, in order to protect our population and protect the 
people, we need to be concentrating our resources into the wild 
land urban interface in and around these communities. We also 
need to be providing resources to the local communities to be 
able to help themselves, and doing that through the State Fire 
Assistance Program is one of the things that we mentioned in 
our testimony. The fact is, communities working together and 
doing the planning for their own protection and their own 
survival is an important aspect. And it is where you get that 
type of project that doesn't get appealed when you have the 
community participation collaboration.
    The Chairman. Thank you.
    Dr. Medler.
    Mr. Medler. Well, I would like to continue off some of 
those thoughts and go back to some of the questions. We have 
huge areas in the back country that are going to burn, 
proscribed fire, controlled fire would probably involve less 
smoke. And there is a tricky decision that is going to need to 
be made there.
    Last year, the San Diego Declaration on Climate Change and 
Fire Management was formally ratified at the third 
International Fire Ecology and Management Congress. So we had 
over 1,200 people there, scientists and managers. This historic 
document really presents a synopsis of the best available 
science and efforts of climate change and wildfire scientists, 
and we provide with that a list of action items. And I would 
like to enter the full San Diego Declaration into the record 
along with my testimony.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 58243A.047
    
    [GRAPHIC] [TIFF OMITTED] 58243A.048
    
    [GRAPHIC] [TIFF OMITTED] 58243A.049
    
    [GRAPHIC] [TIFF OMITTED] 58243A.050
    
    [GRAPHIC] [TIFF OMITTED] 58243A.051
    
    The Chairman. Without objection, it will be included. And I 
thank you, Dr. Medler. It will be included in the record.
    Dr. Running, the final word.
    Mr. Running. And the final word. I think what all of us as 
IPCC authors want to make clear to the public is that this 
warming trend we are on is human induced. We are already seeing 
the early signs of a whole scale transition of our entire 
landscape. Really what we are seeing with these wildfires is a 
natural process where a dryer ecosystem ends up being replaced 
because it can't be supported with the current climate that is 
now occurring. And the only way we are ever going to get ahead 
of this issue is to reduce our fossil fuel emissions down to 
rebalance the global carbon budget.
    The Chairman. Thank you, Dr. Running. And again, 
congratulations on the role you played in helping the United 
Nations win the Nobel Peace Prize.
    And we thank each of you for your contribution here today. 
This is a subject that I think over the next year we are going 
to return over and over again. It is a central part of the 
whole story line of global warming, the causation by human 
beings and its effect subsequently on human beings yet again. 
So we thank you. And with that, this hearing is adjourned.
    [Whereupon, at 12:38 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 58243A.042
    
    [GRAPHIC] [TIFF OMITTED] 58243A.043
    
    [GRAPHIC] [TIFF OMITTED] 58243A.044
    
    [GRAPHIC] [TIFF OMITTED] 58243A.045
    
    [GRAPHIC] [TIFF OMITTED] 58243A.046
    

</pre></body></html>
